CARD AGREEMENT
This Card Agreement is your contract with us. It governs the use of your card and account. The Supplemental Pricing
Information (“Supplement”) is part of this Agreement. Please read this Agreement, including the Supplement, carefully.
Keep them for your records.
Definitions
account means the relationship established between you and us by this Agreement.
APR means an annual percentage rate.
authorized user means any person you allow to use your account.
card means one or more cards or other access devices that we give you to get credit under this Agreement.
This includes account numbers.
card network An organization, such as Mastercard®, Visa® and American Express®, that facilitates the payment process
between a cardmember, merchants and a card issuer.
cash advance Use of your Card to get cash, including foreign currency, or for what we consider a cash-like transaction.
Examples include using your Card for: ATM and teller withdrawals, wire transfers, money orders, traveler’s checks, lottery
tickets, gaming chips and other methods used for gambling, wagers and other betting transactions.
purchase Use of your Card to buy goods and services. Balance Transfers and Cash Advances are not Purchases.
we, us, and our mean Citibank, N.A., the issuer of your account. Citibank, N.A. is located in Sioux Falls, SD.
you, your, and yours mean the person who applied to open the account. It also means any other person responsible for
complying with this Agreement.
Your Account
You agree to use your account in accordance with this Agreement. You must pay us for all amounts due on your account.
This Agreement is binding on you unless you close your account within 30 days after receiving the card and you have not
used or authorized use of the card. Your account must only be used for lawful transactions.
Authorized Users. You may request cards for authorized users. You must pay us for any charges they make even if you
did not intend to be responsible for those charges. You agree that they may receive information about the account, subject
to any limitations we impose. You must tell us if you no longer want them to use your account.
Joint Accounts. If this is a joint account, each of you is responsible individually and together for all amounts owed. Each
of you is responsible even if the account is used by only one of you. You will continue to be liable for the entire balance of
the account, even if your co-applicant is ordered by a court to pay us. You will remain liable to us if your co-applicant fails
to pay as ordered by the court. Your account status will continue to be reported to the credit bureau under each of your
names. The delivery of notices or billing statements to either of you serves as delivery to each of you. We may rely on
instructions given by either of you. We are not liable to either of you for relying upon such instructions.
Credit Limit. Your initial credit limit will be sent to you with your credit card. After that, your credit limit appears on your
billing statement. The full amount of your credit limit is available to use where the card is honored. We will notify you
separately what part of your credit limit is available for cash advances. That part is called the cash advance limit. We may
reduce or increase your credit limit or cash advance limit at any time for any reason as permitted by law. We will notify you
of any change, but the change may take effect before you receive the notice. You should always keep your total balance
below the credit limit. However, if the total balance goes over your credit limit you still must pay us. If your account has
a credit balance, we may reduce the credit balance by any new charges on your account. You may not maintain a credit
balance in excess of your credit limit.
Balance Transfers. Balance transfers are an account feature. We may make them available to you at our discretion
through offers. Balance transfers are subject to the same APR as regular purchases unless the offer tells you otherwise.
Checks. We may provide you with convenience checks. When we do, we will tell you in writing whether they may be
used for balance transfer transactions or cash advance transactions. If we tell you they may be used for balance transfer
transactions, any use will be a balance transfer transaction. You may use them to transfer a balance to your account or
make other transactions. If we tell you they may be used for cash advance transactions, any use will be a cash advance
transaction even if you use the check to make a payment to another creditor. You may not use convenience checks to
pay an amount owed to us under this Agreement or to pay another account with us or an affiliate. We do not certify these
checks or return any checks that have been paid.
Billing Statement. Your billing statement shows the New Balance. This is the total amount you owe us on the Statement
Closing Date. To determine the New Balance, we begin with the total balance at the start of the billing cycle. We add any

purchases, balance transfers or cash advances. We subtract any credits or payments. We then add any interest charges
or fees and make other adjustments.
We deliver a billing statement to only one address. You must notify Customer Service of a change in address. We may
stop sending you statements if we deem your account uncollectible or start collection proceedings; but we may continue
to add interest and fees as permitted by law.
APRs
Variable APRs Based on Prime. If any APR is based on the U.S. Prime Rate (“Prime Rate”), the APR will equal the
Prime Rate plus an additional amount. If the Prime Rate increases, it will cause the APR to increase. If the Prime Rate
decreases, it will cause the APR to decrease. For each billing cycle we use the Prime Rate published in The Wall Street
Journal two business days before the Statement Closing Date. If the Prime Rate causes an APR to change, we put the
new APR into effect as of the first day of the billing cycle for which we calculate the APR. We apply the new APR to any
existing balances, subject to any promotional rate that may apply. If The Wall Street Journal does not publish the Prime
Rate, we will use a similar published rate.
APR for Purchases and Balance Transfers. See the Supplement.
APR for Reduced Rate Credit Plan. There is a 48 month reduced rate credit plan with an APR of 11.90%. This APR
equals a daily periodic rate of 0.03260%.
There is a 24 month reduced rate credit plan with an APR of 0%. This APR equals a daily periodic rate of 0.00000%. There
is a 24 month reduced rate credit plan with an APR of 7.99%. This APR equals a daily periodic rate of 0.02189%. There is
a 24 month reduced rate credit plan with an APR of 11.99%. This APR equals a daily periodic rate of 0.03284%. There is a
36 month reduced rate credit plan with an APR of 8.99%. This APR equals a daily periodic rate of 0.02463%. There is a 36
month reduced rate credit plan with an APR of 12.99%. This APR equals a daily periodic rate of 0.03558%.
The reduced rate credit plans are available for select purchases. The store sales associate or store website will identify
which purchases are eligible for each plan.
APR for Cash Advances. See the Supplement.
Effect of APR Increases. If an APR increases, interest charges increase. Your minimum payment may increase as well.
Promotions
We may offer promotional terms for all or a part of any balances. Any promotional terms may apply for a limited period
of time. They will be governed by the terms of the promotional offer and this Agreement. Your promotional terms will end
when the promotional period expires. The promotional offer will tell you if we require a separate minimum payment on the
promotional balance.
If a promotional offer is a deferred interest offer, no interest charges will be imposed on the deferred interest balance if
you pay the balance in full by the end of the promotional period for that deferred interest balance. We will impose interest
charges on the deferred interest balance at the APR for regular purchases from the date of purchase if you do not pay the
balance in full by the end of the promotional period. Deferred interest offers may also be called “Same As Cash Plans”.
Interest Charges Based on APRs
Interest Charges. We impose interest charges when we apply APRs to your account balances. We do this every day by
using a daily periodic rate. To get a daily periodic rate, we divide the APR by 365.
When Interest Charges Begin. We begin to impose interest charges the first day we add a charge to a daily balance.
The charges we add to a daily balance include purchases, balance transfers, and cash advances. They also include
interest charges and fees. We continue to impose interest charges until we credit your account with full payment of the
total amount you owe us.
Grace Period on Purchases. You can avoid interest charges on purchases, but not on balance transfers and cash
advances. This is called a grace period on purchases. The grace period is at least 25 days. To get a grace period on
purchases, you must pay the New Balance by the payment due date every billing cycle. If you do not, you will not get a
grace period until you pay the New Balance for two billing cycles in a row.
If you have a balance subject to a deferred interest promotion and that promotion does not expire before the payment due
date, that balance (an “excluded balance”) is excluded from the amount you must pay in full to get a grace period on a
purchase balance other than an excluded balance. In addition, if you have a reduced rate credit plan balance, that balance
(an “excluded balance”) is excluded from the amount you must pay in full to get a grace period on a purchase balance
other than an excluded balance. However, you must still pay any separately required payment on the excluded balance.
In billing cycles in which payments are allocated to deferred interest balances first, the deferred interest balance will be
reduced before any other balance on the account. However, you will continue to get a grace period on purchases, other
than an excluded balance, so long as you pay the New Balance (less any excluded balance, plus any separately required

payment on an excluded balance) in full by the payment due date each billing cycle. In addition, certain promotional offers
not described above may also allow you to have a grace period on purchases without having to pay all or a portion of the
promotional balance by the payment due date. If that is the case, the promotional offer will describe what happens.
Calculation of Interest Charges – Daily Balance Method (Including Current Transactions). We calculate interest
charges each billing cycle. To do this:
• We start with each of your different balances. These balances include, for example, regular purchases, regular cash
advances, and different promotional balances. (When we calculate interest charges, we treat each deferred interest
transaction separately even if it has the same terms as another deferred interest transaction.)
• We calculate the daily balance for each of your different balances. To get a daily balance, we start with the balance
as of the end of the previous day. We add any interest charge on the previous day’s balance. (This results in daily
compounding of interest charges.) We add any new charges. We then subtract any new credits or payments.
• We multiply each daily balance by the daily periodic rate that applies to it. We do this for each day in the billing cycle.
This gives us the daily interest charges for each of your different balances.
• We add up all the daily interest charges. The sum is the total interest charge for the billing cycle.
• You authorize us to round interest charges to the nearest cent.
When we calculate daily balances, we add a purchase, balance transfer, or cash advance as of the Transaction Date.
(The Transaction Date for a balance transfer or cash advance is the date we get a request to complete a transaction.
When you send a convenience check directly to someone, the Transaction Date is the date we receive the check
for payment. The Transaction Date is on the billing statement.) We add a transaction fee to the same balance as the
transaction. We generally add other fees to the regular purchase balance. We add any remaining balance from a balance
transfer at a promotional APR to the regular purchase balance. We do this on the day after the promotional period expires.
We subtract a payment or credit as of the day it is credited to the account and then make other adjustments. We treat a credit balance
as a balance of zero.
Minimum Interest Charge. If we charge you interest, the charge will be no less than $1. We add the charge to the regular
purchase balance or allocate it among one or more of the balances that accrues interest.
Balance Subject to Interest Rate. Your statement shows a Balance Subject to Interest Rate. It shows this for each
different balance. The Balance Subject to Interest Rate is the average of the daily balances during the billing cycle. A
billing cycle begins on the day after the Statement Closing Date of the previous billing cycle. It includes the Statement
Closing Date of the current billing cycle.
Fees
Annual Membership Fee. The applicable Account Opening Table (Your approval will tell you if you are approved for the
My Best Buy® Visa® Gold or if you can choose My Best Buy® Visa® Platinum) shows if an annual membership fee applies
to your account. If you are approved for the My Best Buy® Visa® Platinum, the annual membership fee is $0. If you are
approved for the My Best Buy® Visa® Gold, the annual membership fee is $59. We will refund this fee if you notify us
that you are closing your account within 30 days of the mailing or delivery date of the billing statement on which the fee
appears. The fee is otherwise non-refundable. If this fee applies, we add it to the regular purchase balance.
Transaction Fee for Cash Advances. You take a cash advance if you use a cash advance convenience check; get
money through an automated teller machine (AT M); or get money through home banking or a financial institution. You
also take a cash advance if you make a wire transfer; buy a money order, traveler’s check, lottery ticket, casino chip, or
similar item; or engage in a similar transaction. For each cash advance we add a transaction fee of 5% of the amount of
the cash advance, but not less than $10.
Transaction Fee for Balance Transfers. You make a balance transfer if you use a balance transfer convenience check
or contact us to transfer a balance. For each balance transfer we add a transaction fee of 5% of the amount of the balance
transfer, but not less than $15. This fee is in addition to any periodic fee that may be imposed with a promotional offer.
Late Fee. We may add a late fee for each billing cycle in which you have a past due payment. For late fee purposes, you
have a past due payment any time you fail to pay the Minimum Payment Due (less the Amount Over Credit Limit shown
on your billing statement) by the payment due date. The fee will be $29; or $40 for any additional past due payment during
the next six billing cycles after a past due payment. However, the fee will not exceed the amount permitted by law. We add
this fee to the regular purchase balance.
Foreign Currency Conversion
Foreign Currency Conversion – Purchases. A Card Network converts the amount of a Purchase in a foreign currency
into U.S. dollars. Each Card Network follows its own procedures for conversion. These procedures include how the Card
Network chooses an exchange rate and when to do the conversion. For example, Visa chooses either a governmentmandated exchange rate or chooses from a range of rates available on wholesale currency markets (and, in either case,

the exchange rate that it chooses may be less favorable than the rate that Visa itself receives when it makes foreign
currency transactions). Depending on the policies of each Card Network, the exchange rate chosen may be the one in
effect on the day the Card Network does the conversion, or on the day before. The exchange rate that a Card Network
uses to convert the Purchase to U.S. dollars may differ from the rate in effect on the date you made the Purchase or on
the post date for that Purchase shown on your statement. The Card Network’s procedures may change without notice.
If a third party, such as a merchant, converts the amount of a Purchase into U.S. dollars before sending the Purchase to a
Card Network, the third party chooses the conversion rate instead of the Card Network.
Foreign Currency Conversion – Cash Advances. If you take a Cash Advance in a foreign currency at an ATM or branch
of a financial institution, it may not be the Card Network in all instances that converts the Transaction into U.S. dollars.
Instead, depending on where the Transaction takes place, another third party, such as a financial institution, ATM network,
or ATM operator, may do the conversion. We do not control this. However, if you use your Card for a Cash Advance at a
Citibank ATM or branch, then we or our affiliates may do the conversion.
The party that converts a Cash Advance to U.S. dollars will choose the exchange rate and when to do the conversion. The
exchange rate in effect on the date the Cash Advance is converted to U.S. dollars may differ from the rate in effect on the
date you took the Cash Advance or the post date for that Transaction shown on your statement. The exchange rate may
also differ from any rate quoted to you when you made the Transaction.
Payments
Making Payments. You may pay all or part of your account balance at any time. However, you must pay at least the
Minimum Payment Due by the payment due date each billing cycle. The sooner you pay the New Balance, the less you
will pay in interest charges.
To calculate the Minimum Payment Due, we begin with any past due amount. We add any amount in excess of your credit
limit. We add the amount due on each reduced rate credit plan balance. We add any additional amount specified in a
promotional offer. We add any amount required by the Promotion Calculation. We also add the largest of the following:
• The Calculated New Balance if it is less than $29;
• $29 if the Calculated New Balance is at least $29; or
• 1% of the Calculated New Balance plus the amount of your billed interest charges on that balance, any minimum
interest charge allocated to that balance, and any applicable late fee (the result is rounded up to the nearest dollar).
However, we subtract interest charges that accrued during prior billing cycles on a deferred interest balance that
ended during the billing cycle covered by the statement.
The Calculated New Balance equals the New Balance on the billing statement less any balances subject to a reduced rate
credit plan, the Promotion Calculation, or to either of two types of promotional terms. The first type are terms that do not require
a minimum payment. The second type are terms that require an additional amount as part of the Minimum Payment Due.
The amount due on a reduced rate credit plan balance is the smaller of:
• The Repayment Percentage times the reduced rate credit plan’s Highest Balance plus any credit protection or credit
insurance fee allocated to that balance. (The result is rounded up to the nearest dollar.) Or
• The reduced rate credit plan’s balance on the Statement Closing Date.
For each reduced rate credit plan balance, the Highest Balance is the highest reduced rate credit plan balance on a
Statement Closing Date, less any credit protection or credit insurance fee allocated to that balance for that cycle, since the
last time that balance was zero. The balance is zero at account opening. The Repayment Percentage for each reduced
rate credit plan is as follows:
• 24 month plan with an APR of 0%: 4.1667%.
• 24 month plan with an APR of 7.99%: 4.5223%.
• 24 month plan with an APR of 11.99%: 4.7069%.
• 36 month plan with an APR of 8.99%: 3.1795%.
• 36 month plan with an APR of 12.99%: 3.3689%.
• 48 month plan with an APR of 11.90%: 2.6285%.
If you have a deferred interest transaction balance subject to the Promotion Calculation, the Promotion Calculation will
equal 1% of this balance during the promotion period. (The result is rounded up to the nearest cent.) After the promotion
period, any such remaining promotional balance will be included in the Calculated New Balance. The Promotion
Calculation will apply if, based on the amount of the transaction as shown on the first statement that displays the
transaction and the dollar amount in the Minimum Payment Due calculation in effect at the time of the transaction, we
determined that paying such dollar amount each billing cycle would result in repayment of the promotional balance before
the end of the promotion period.

The Minimum Payment Due may reflect adjustments to the New Balance. The Minimum Payment Due is never more
than the Calculated New Balance plus three amounts. The first is any amount required by a reduced rate credit plan. The
second is any amount required by a promotional offer. The third is any amount required by the Promotion Calculation.
Application of Payments. Payments in excess of the Minimum Payment Due are applied in accordance with law. This
means that we will generally apply payments in excess of the Minimum Payment Due to higher APR balances first.
However, excess payments received before a deferred interest promotion expires are applied to the deferred interest
promotional balance first in the last two billing cycles of the promotional period. And, if the expiration date of a deferred
interest promotion is before the payment due date in the billing cycle in which the deferred interest promotion expires,
excess payments received before the deferred interest promotion expires are applied to the deferred interest promotional
balance first in the last three billing cycles of the promotional period. Payments equal to or less than the Minimum
Payment Due and credits are applied at our discretion and you authorize us to apply payments and credits in a way that is
most favorable or convenient for us. This may include applying such payments and credits to lower APR balances first.
Payment Instructions. We credit your payments in accordance with our payment instructions on the billing statement.
You must pay us in U.S. dollars. To do so, you must use a check, similar instrument, or electronic debit that is drawn on
and honored by a bank in the U.S. Do not send cash. We can accept late or partial payments, or payments that reflect
“paid in full” or other restrictive endorsements, without losing our rights. We also reserve the right to accept payments
made in foreign currency and instruments drawn on funds on deposit outside the U.S. If we do, we select the currency
conversion rate. We will then credit your account in U.S. dollars after deducting any costs incurred in processing your
payment. Or we may bill you separately for these costs.
Credit Reporting
We may report information about your account to credit bureaus. Late payments, missed payments, or other defaults on
your account may be reflected in your credit report. We may report account information in your name and the names of
authorized users. We may also obtain follow-up credit reports on you.
If you think we reported incorrect information to a credit bureau, write us at the Customer Service address on the billing
statement. We will investigate the matter. We will then tell you if we agree or disagree with you. If we agree with you, we will
contact each credit bureau to which we reported and request a correction. If we disagree with you, we will tell you that.
Information Sharing
You authorize us to share information about you as permitted by law. This includes information we get from you and
others. It also includes information about your transactions with us. Please see our Privacy Notice for details about our
information sharing practices.
Changes to this Agreement
We may change the rates, fees, and terms of this Agreement from time to time as permitted by law. The changes
may add, replace, or remove provisions of this Agreement. We will give you advance written notice of the
changes and a right to opt out to the extent required by law.
Default
You default under this Agreement if you fail to pay the Minimum Payment Due by its due date; go over your credit limit; pay
by a check or similar instrument that is not honored or that we must return because it cannot be processed; pay by electronic
debit that is returned unpaid; file for bankruptcy; or fail to comply with the terms of this Agreement. If you default, we may
close your account and, to the extent permitted by law, demand immediate payment of the total balance.
Refusal of the Card, Closed Accounts, and Related Provisions
Refusal of the Card. We do not guarantee approval of transactions. We are not liable for transactions that are not
approved. That is true even if you have enough credit. We may limit the number of transactions approved in one day. If we
detect unusual or suspicious activity, we may suspend your credit privileges.
Preauthorized Charges. We may suspend any automatic or other preauthorized card charges you arrange with a third
party. We may do this if you default; if the card is lost or stolen; or we change your account for any reason. If we do this,
you are responsible for paying the third party directly if you wish to do so. You are also responsible for reinstating the
preauthorized charges if you wish to do so and we permit it.
Lost or Stolen Cards, Account Numbers, or Convenience Checks. You must call us if any card, account number, or
check is lost or stolen. You must also call us if you think someone used or may use them without permission. When you
call, we may require you to provide information to help our investigation. We may require you to provide this information in
writing. For example, we may ask you to identify any charges that were not made by you or someone authorized by you.
We may also ask you to confirm that you received no benefit from those charges.

Closing Your Account. You may close your account by notifying us in writing or over the phone. If you close your
account, you must still repay the total balance in accordance with this Agreement. We may also close your account or
suspend account privileges at any time for any reason. We may do this without prior notice to you. We may also reissue a
different card at any time. You must return any card to us upon request.
Protections for Active Duty Service Members and Their Dependents
Protections. Federal law provides important protections to members of the Armed Forces and their dependents relating
to extensions of consumer credit. In general, the cost of consumer credit to a member of the Armed Forces and his or
her dependent may not exceed an annual percentage rate of 36 percent. This rate must include, as applicable to the
credit transaction or account: The costs associated with credit insurance premiums; fees for ancillary products sold
in connection with the credit transaction; any application fee charged (other than certain application fees for specified
credit transactions or accounts); and any participation fee charged (other than certain participation fees for a credit card
account). You are entitled to these protections if you are a Covered Borrower, as defined below.
Covered Borrower. You are a Covered Borrower if, in connection with the opening of your account, we determine you are
an active duty member of the Armed Forces (including active Guard and Reserve duty) or a dependent of an active duty
member. You will cease to be a Covered Borrower if we determine you are no longer an active duty member of the Armed
Forces (including active Guard and Reserve duty) or a dependent of an active duty member.
Oral Disclosures. If you are a Covered Borrower, you may obtain information related to your account, including
information about these protections and your payment obligation, by calling 1-877-625-6379 (TTY: Use 711 or other Relay
Service).
Arbitration. The section of the Card Agreement entitled “ARBITRATION” does not apply if you are a Covered
Borrower at the time your account is opened.
ARBITRATION
PLEASE READ THIS PROVISION OF THE AGREEMENT CAREFULLY.
THIS SECTION PROVIDES THAT DISPUTES MAY BE RESOLVED BY BINDING ARBITRATION. ARBITRATION
REPLACES THE RIGHT TO GO TO COURT, HAVE A JURY TRIAL OR INITIATE OR PARTICIPATE IN A CLASS ACTION. IN
ARBITRATION, DISPUTES ARE RESOLVED BY AN ARBITRATOR, NOT A JUDGE OR JURY. ARBITRATION PROCEDURES
ARE SIMPLER AND MORE LIMITED THAN IN COURT. THIS ARBITRATION PROVISION IS GOVERNED BY THE FEDERAL
ARBITRATION ACT (FA A), AND SHALL BE INTERPRETED IN THE BROADEST WAY THE LAW WILL ALLOW.
Covered claims
• You or we may arbitrate any claim, dispute or controversy between you and us arising out of or related to your account,
a previous related account or our relationship (called “Claims”).
• If arbitration is chosen by any party, neither you nor we will have the right to litigate that Claim in court or have
a jury trial on that Claim.
Except as stated below, all Claims are subject to arbitration, no matter what legal theory they’re based on or what remedy
(damages, or injunctive or declaratory relief) they seek, including Claims based on contract, tort (including intentional tort),
fraud, agency, your or our negligence, statutory or regulatory provisions, or any other sources of law; Claims made as
counterclaims, cross-claims, third-party claims, interpleaders or otherwise; Claims made regarding past, present, or future
conduct; and Claims made independently or with other claims. This also includes Claims made by or against anyone
connected with us or you or claiming through us or you, or by someone making a claim through us or you, such as a coapplicant, authorized user, employee, agent, representative or an affiliated/parent/subsidiary company.
Arbitration limits
• Individual Claims filed in a small claims court are not subject to arbitration, as long as the matter stays in small claims
court.
• We won’t initiate arbitration to collect a debt from you unless you choose to arbitrate or assert a Claim against us. If you
assert a Claim against us, we can choose to arbitrate, including actions to collect a debt from you. You may arbitrate on
an individual basis Claims brought against you, including Claims to collect a debt.
• Claims brought as part of a class action, private attorney general or other representative action can be arbitrated only
on an individual basis. The arbitrator has no authority to arbitrate any claim on a class or representative basis and
may award relief only on an individual basis. If arbitration is chosen by any party, neither you nor we may pursue a
Claim as part of a class action or other representative action. Claims of 2 or more persons may not be combined in the
same arbitration. However, applicants, co-applicants, authorized users on a single account and/or related accounts, or
corporate affiliates are here considered as one person.

How arbitration works
• Arbitration shall be conducted by the American Arbitration Association (“AAA”) according to this arbitration provision and
the applicable AAA arbitration rules in effect when the claim is filed (“AAA Rules”), except where those rules conflict with
this arbitration provision. You can obtain copies of the AAA Rules at the AAA’s website (www.adr.org) or by calling 800778-7879 (TTY: Use 711 or other Relay Service). You or we may choose to have a hearing, appear at any hearing by
phone or other electronic means, and/or be represented by counsel. Any in-person hearing will be held in the same city
as the U.S. District Court closest to your billing address.
• Arbitration may be requested any time, even where there is a pending lawsuit, unless a trial has begun or a final
judgment entered. Neither you nor we waive the right to arbitrate by filing or serving a complaint, answer, counterclaim,
motion, or discovery in a court lawsuit. To choose arbitration, a party may file a motion to compel arbitration in a pending
matter and/or commence arbitration by submitting the required AAA forms and requisite filing fees to the AAA.
• The arbitration shall be conducted by a single arbitrator in accord with this arbitration provision and the AAA Rules,
which may limit discovery. The arbitrator shall not apply any federal or state rules of civil procedure for discovery, but
the arbitrator shall honor claims of privilege recognized at law and shall take reasonable steps to protect account
information and other confidential information of either party if requested to do so. The arbitrator shall apply applicable
substantive law consistent with the FAA and applicable statute of limitations, and may award damages or other relief
under applicable law.
• The arbitrator shall make any award in writing and, if requested by you or us, may provide a brief statement of the
reasons for the award. An arbitration award shall decide the rights and obligations only of the parties named in the
arbitration, and shall not have any bearing on any other person or dispute.
Paying for arbitration fees
• We will pay your share of the arbitration fee for an arbitration of Claims of $75,000 or less if they are unrelated to debt
collection. Otherwise, arbitration fees will be allocated according to the applicable AAA Rules. If we prevail, we may not
recover our arbitration fees, unless the arbitrator decides your Claim was frivolous. All parties are responsible for their
own attorney’s fees, expert fees and any other expenses, unless the arbitrator awards such fees or expenses to you or
us based on applicable law.
The final award
• Any award by an arbitrator is final unless a party appeals it in writing to the AAA within 30 days of notice of the award. The
arbitration appeal shall be determined by a panel of 3 arbitrators. The panel will consider all facts and legal issues anew
based on the same evidence presented in the prior arbitration, and will make decisions based on a majority vote. Arbitration
fees for the arbitration appeal shall be allocated according to the applicable AAA Rules. An award by a panel on appeal is
final. A final award is subject to judicial review as provided by applicable law.
Survival and Severability of Terms
This arbitration provision shall survive changes in this Agreement and termination of the account or the relationship
between you and us, including the bankruptcy of any party and any sale of your account, or amounts owed on your
account, to another person or entity. If any part of this arbitration provision is deemed invalid or unenforceable, the other
terms shall remain in force, except that there can be no arbitration of a class or representative Claim. This arbitration
provision may not be amended, severed or waived, except as provided in this Agreement or in a written agreement
between you and us.
Rules for rejecting this arbitration provision
You may reject this arbitration provision by sending a written rejection notice to us at: P.O. Box 790340, St. Louis, MO
63179. Your rejection notice must be mailed within 45 days of account opening. Your rejection notice must state that you
reject the arbitration provision and include your name, address, account number and personal signature. No one else may
sign the rejection notice. Your rejection notice will not apply to the arbitration provision(s) governing any other account(s)
that you have or had with us. Rejection of this arbitration provision won’t affect your other rights or responsibilities under
this Agreement, including use of the account.
Governing Law and Enforcing our Rights
Governing Law. Federal law and the law of South Dakota, where we are located, govern the terms and enforcement of
this Agreement.
Enforcing this Agreement. We will not lose our rights under this Agreement because we delay in enforcing them or fail to
enforce them.
Collection Costs. To the extent permitted by law, you are liable to us for our legal costs if we refer collection of your
account to a lawyer who is not our salaried employee. These costs may include reasonable attorneys’ fees. They may
also include costs and expenses of any legal action.

Assignment. We may assign any or all of our rights and obligations under this Agreement to a third party.
For Further Information
Call us toll-free for further information. Call the toll-free Customer Service telephone number shown on the billing
statement or on the back of your card. You can also call local or toll-free Directory Assistance to get our telephone
number.
Your Billing Rights:
Keep this Document for Future Use
This notice tells you about your rights and our responsibilities under the Fair Credit Billing Act.
What To Do If You Find A Mistake On Your Statement
If you think there is an error on your statement, write to us at the address for billing inquiries and correspondence shown
on the front of your statement.
In your letter, give us the following information:
• Account information: Your name and account number.
• Dollar amount: The dollar amount of the suspected error.
• Description of problem: If you think there is an error on your bill, describe what you believe is wrong and why you
believe it is a mistake.
You must contact us:
• Within 60 days after the error appeared on your statement.
• At least 3 business days before an automated payment is scheduled, if you want to stop payment on the amount you
think is wrong.
You must notify us of any potential errors in writing. You may call us, but if you do we are not required to investigate any
potential errors and you may have to pay the amount in question.
What Will Happen After We Receive Your Letter
When we receive your letter, we must do two things:
1. Within 30 days of receiving your letter, we must tell you that we received your letter. We will also tell you if we have
already corrected the error.
2. Within 90 days of receiving your letter, we must either correct the error or explain to you why we believe the bill is
correct.
While we investigate whether or not there has been an error:
• We cannot try to collect the amount in question, or report you as delinquent on that amount.
• The charge in question may remain on your statement, and we may continue to charge you interest on that amount.
• While you do not have to pay the amount in question, you are responsible for the remainder of your balance.
• We can apply any unpaid amount against your credit limit.
After we finish our investigation, one of two things will happen:
• If we made a mistake: You will not have to pay the amount in question or any interest or other fees related to that
amount.
• If we do not believe there was a mistake: You will have to pay the amount in question, along with applicable interest
and fees. We will send you a statement of the amount you owe and the date payment is due. We may then report
you as delinquent if you do not pay the amount we think you owe.
If you receive our explanation but still believe your bill is wrong, you must write to us within 10 days telling us that you still
refuse to pay. If you do so, we cannot report you as delinquent without also reporting that you are questioning your bill.
We must tell you the name of anyone to whom we reported you as delinquent, and we must let those organizations know
when the matter has been settled between us.
If we do not follow all of the rules above, you do not have to pay the first $50 of the amount you question even if your bill is
correct.
Your Rights If You Are Dissatisfied With Your Credit Card Purchases
If you are dissatisfied with the goods or services that you have purchased with your credit card, and you have tried in
good faith to correct the problem with the merchant, you may have the right not to pay the remaining amount due on the
purchase.

To use this right, all of the following must be true:
1. The purchase must have been made in your home state or within 100 miles of your current mailing address, and the
purchase price must have been more than $50. (Note: Neither of these are necessary if your purchase was based on
an advertisement we mailed to you, or if we own the company that sold you the goods or services.)
2. You must have used your credit card for the purchase. Purchases made with cash advances from an ATM or with a
check that accesses your credit card account do not qualify.
3. You must not yet have fully paid for the purchase.
If all of the criteria above are met and you are still dissatisfied with the purchase, contact us in writing at the address for
billing inquiries and correspondence shown on the front of your statement.
While we investigate, the same rules apply to the disputed amount as discussed above. After we finish our investigation,
we will tell you our decision. At that point, if we think you owe an amount and you do not pay, we may report you as
delinquent.
© 2021 Citibank, N.A.

BBYVS-0721

